             Office of Inspector General




November 1, 2004

KIM R. FERNANDEZ
ACTING MANAGER, BAY VALLEY DISTRICT

SUBJECT: Audit Report –Self-Service Vending Program – Bay Valley District
         (Report Number DR-AR-05-008)

This is one of a series of audit reports on the Self-Service Vending Program in
the Pacific Area. The report presents the results of our self-initiated audit on
the Self-Service Vending Program in the Bay Valley District (Project Number
04YG016DR003). The information in this district report will be included in a report
to the Pacific Area Vice President.

                                                Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.
Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Pacific Area had 3,325 pieces of vending equipment that
generated over $145 million in revenue, of which the Bay Valley District maintained
14 percent (459) of the total area machines that generated over 14 percent
($20.3 million) of the total area vending revenue. During the first quarter of FY 2004,
the Pacific Area had 3,395 pieces1 of vending equipment that generated over
$37.3 million in revenue, of which the Bay Valley District maintained 14 percent (467) of
the total area machines that generated over 14 percent ($5.1 million) of the total area
vending revenue.




1
 During the first quarter of FY 2004, the Pacific Area had 70 additional vending machines and the Bay Valley District
had 8 additional vending machines during this period.

    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
     Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-008
 Bay Valley District


                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 459 vending machines operating in the Bay
Valley District during FY 2003, 44 were classified as obsolete based on Postal Service
guidance, while the remaining 415 were classified as current equipment. For the
first quarter of FY 2004, 467 vending machines were operating in the Bay Valley
District, of which 44 were classified as obsolete, and the remaining 423 were classified
as current equipment.

During our audit, we visited Postal Service facilities; interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.2 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Bay Valley District was conducted from March through
November 2004 in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of

2
    Obsolete equipment was not included in the minimum revenue analysis.




                                                        2
Self-Service Vending Program –                                                                         DR-AR-05-008
 Bay Valley District


approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations
and the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Bay Valley District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Bay Valley District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Bay Valley District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Bay Valley
District indicated that overall the machines were operational and easily accessible, with
two exceptions.

Redeployment of Vending Equipment

Bay Valley District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, our review of the vending equipment revenue reports indicated that
48 percent (201 of 415) of the vending machines did not meet the minimum revenue
requirements during FY 2003. Vending equipment sales were approximately
$3.5 million, which was significantly less than the minimum revenue requirement of
$6.5 million. As a result, the Bay Valley District may have missed revenue opportunities
of approximately $950,000 to $3 million by not redeploying this equipment.3

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 47 percent (200 of 423) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales for the first quarter
of FY 2004 were approximately $637,000, which was significantly less than the
minimum revenue requirement of $1.3 million. As a result, the Bay Valley District may
have missed revenue opportunities of approximately $689,000 by not redeploying this
equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
3
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $950,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $3 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                        3
Self-Service Vending Program –                                                                         DR-AR-05-008
 Bay Valley District


Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials took action to redeploy two vending machines that did not meet
minimum revenue requirements in FY 2003. 4 For the remaining 199 machines,
district officials did not initiate any redeployment action. Additionally, during the
first quarter of FY 2004, district officials did not initiate any redeployment actions for the
200 underperforming machines. District officials did not initiate any redeployment action
for the underperforming vending machines during FY 2003 and the first quarter of
FY 2004 because of concern for the potential adverse impact on customer service due
to the nonavailability of machines. District officials also indicated the Self-Service
Vending Program was not considered a high-priority, and limited resources were
allocated to the program. Work efforts were directed to higher priorities such as
mystery shopper, post office boxes, automated postal centers, contract postal units,
retail products, and retail training. By not taking action to redeploy under performing
equipment, the district could miss revenue opportunities during the remainder of
FY 2004.

District officials expressed concern regarding the Postal Service’s methodology to
establish minimum revenue requirements, and that current requirements are too high in
relation to the machines geographic locations. We plan to forward this concern to
Postal Service Headquarters.

We discussed the results with Bay Valley District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending machine locations based on trend analysis of historical
vending data, and receipt of 54 automated postal centers.5



4
  Our review of the revenue reports for the first quarter of FY 2004 indicated that the two machines revenue did not
meet minimum revenue requirements.
5
  Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                         4
Self-Service Vending Program –                                                               DR-AR-05-008
 Bay Valley District


Recommendation

We recommend the Acting Manager, Bay Valley District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed with the finding and recommendation. The Retail Manager and
District Vending Coordinator will review revenue reports to identify underperforming
equipment, notify postmasters, and redeploy underperforming equipment as often as
possible. Target completion for all machines meeting the minimum revenue is the end
of FY 2005. Management’s comments, in their entirety, are included in the appendix of
this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Bay Valley District officials continued to use 44 obsolete machines and
possibly incurred maintenance and repair expenses, even though Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.6 Our
review of vending equipment revenue reports indicated that 95 percent (42 of 44) of the
vending machines did not meet minimum revenue requirements during FY 2003 and the
first quarter of FY 2004.

District officials stated they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service since replacement
equipment was not available. As a result, during FY 2003 and the first quarter of
FY 2004, the district possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by continuing to operate and maintain the obsolete
machines. We were unable to determine the amount of repair and maintenance
expenses associated with the obsolete machines because the Postal Service does not
capture the data for each machine.7


6
  This policy supplements Maintenance Management Order MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
7
  We plan to address this issue in a capping report to Postal Service Headquarters officials.




                                                   5
Self-Service Vending Program –                                                  DR-AR-05-008
 Bay Valley District


Periodically, the Postal Service lists vending equipment as obsolete, meaning the
equipment has exceeded its expected life cycle and will no longer receive support
from maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will incur repair and
maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance expenses management has no
means of assessing whether the benefits of operating the obsolete equipment outweigh
the cost to operate it. District officials indicated that plans will be made to replace the
obsolete machines when the new automated postal center machines are deployed to
the district location.

Recommendation

We recommend the Acting Manager, Bay Valley District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and recommendation and stated obsolete
equipment will be removed by the end of FY 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

Physical Observation of Vending Machines

Our physical observation of vending machines in the Bay Valley District indicated that
overall the machines were operational and easily accessible, with two exceptions.
Specifically, 90 percent (18 of 20) of the machines judgmentally selected for review
were operating properly and easily accessible. Two of the machines were inoperable in
April 2004; however, the inoperable machines were not yet listed in VESS as of June 8,
2004. In addition to the 20 machines judgmentally selected, we physically observed
two machines that were not listed in VESS according to April 2004 data. District




                                            6
Self-Service Vending Program –                                                   DR-AR-05-008
 Bay Valley District


officials indicated that the information for the inoperable machines was not listed in
VESS due to employees inaccurately completing PS Forms 8130, Vending Equipment
Sales and Service Daily Activity Log. 8 District officials also indicated that they were in
the process of updating VESS to accurately reflect vending inventory. By not properly
completing PS Forms 8130, Postal Service managers have no means of ensuring
vending machines are inoperable or in need of repair potentially resulting in a loss of
revenue.

The VESS is a nationwide computerized reporting system for the Self-Service
Vending Program, which is used as a management tool for real-time tracking of
vending cost in relation to sales. Data maintained in the VESS database is generated
from PS Form 8130, Vending Equipment Sales and Service Daily Activity Log.
Each employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Acting Manager, Bay Valley District, direct the Retail Manager to:

3. Require employees to accurately complete a PS Form 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the four machines, detailing the inoperable
   and current location status for each machine, and consider retraining employees to
   accurately complete the forms.

Management’s Comments

Management provided subsequent comments stating that the Retail Manager and
District Vending Coordinator will reiterate the proper procedures for updating VESS to
accurately reflect vending inventory, and use this management tool for real-time
tracking of vending cost in relation to sale.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




8
    We plan to conduct an audit on the accuracy of data in VESS.




                                                         7
Self-Service Vending Program –                                              DR-AR-05-008
 Bay Valley District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Alfred Iniguez
    Karen S. Davis
    Kelly Fong
    Al C. Laigo
    Steven R. Phelps




                                          8
Self-Service Vending Program –                           DR-AR-05-008
 Bay Valley District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                   9
Self-Service Vending Program –        DR-AR-05-008
 Bay Valley District




                                 10
